Audit Report




OIG-08-033
BANK SECRECY ACT: FinCEN Has Taken Action to Improve Its
Program to Register Money Services Businesses (Corrective
Action Verification on OIG-05-050)
April 25, 2008




Office of
Inspector General
Department of the Treasury
Contents


Audit Report................................................................................................. 1

    Background ................................................................................................ 2

    Objective, Scope, and Methodology............................................................... 2

    Corrective Actions Taken by FinCEN.............................................................. 3

Appendices

    Appendix 1:         Management Response ......................................................... 6
    Appendix 2:         Report Distribution................................................................ 7

Abbreviations

    FinCEN          Financial Crimes Enforcement Network
    IRS             Internal Revenue Service
    JAMES           Joint Audit Management Enterprise System
    MSBs            Money Services Businesses
    ODCFO           Office of Deputy Chief Financial Officer




                        BANK SECRECY ACT: FinCEN Has Take Action to Improve Its Program                    Page i
                        to Register Money Services Businesses (OIG-08-033)
This Page Intentionally Left Blank
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                      April 25, 2008

                      James H. Freis, Jr., Director
                      Financial Crimes Enforcement Network

                      This report presents the results of our review of corrective actions
                      taken by the Financial Crimes Enforcement Network (FinCEN) in
                      response to two recommendations in our September 2005 report
                      on FinCEN’s Money Services Businesses (MSBs) registration
                      program.1 These recommendations were for FinCEN to (1) develop
                      and implement a strategy to take enforcement actions against
                      unregistered MSBs and (2) clarify the dollar transaction threshold
                      for MSB designation. The two recommendations were closed in
                      March and May 2006, respectively, in Treasury’s Joint Audit
                      Management Enterprise System (JAMES). In closing the
                      recommendations, FinCEN indicated that it had implemented,
                      documented, and validated the corrective actions taken in response
                      to the recommendations.

                      To address the recommendations, FinCEN developed a strategy to
                      identify unregistered MSBs and coordinate regulatory actions, and
                      issued guidance on MSB registration and deregistration that defines
                      the dollar transaction threshold for MSB designation more clearly.
                      Therefore, we believe that FinCEN addressed the intent of our
                      recommendations. In addition, FinCEN is in the process of
                      reviewing its regulatory framework for MSBs and expects to further
                      assess the current dollar transaction threshold.




1
 Finding 3, Recommendation 2, and Finding 4, Recommendation 3, in Bank Secrecy Act: Major
Challenges Faced by FinCEN in Its Program to Register Money Services Businesses, OIG-05-050 (Sept.
27, 2005).




                      BANK SECRECY ACT: FinCEN Has Take Action to Improve Its Program        Page 1
                      to Register Money Services Businesses (OIG-08-033)
Background
                         According to Office of Management and Budget Circular A-50,
                         audit follow-up is an integral part of good management and a
                         shared responsibility of management and auditors.2 Each agency,
                         the circular states, should establish an audit follow-up system to
                         assure the prompt and proper resolution and implementation of
                         audit recommendations. Treasury requires bureau staff to ensure
                         that (1) audit recommendations are resolved on a timely basis; (2)
                         resolved audit recommendations (i.e., those agreed to by bureau
                         management) are promptly acted upon and that progress with
                         respect to proposed and ongoing corrective actions is adequately
                         monitored; and (3) statistical information and other data are
                         appropriately reported pursuant to all statutory and regulatory
                         requirements.3

                         At the departmental level, the status of audit recommendations is
                         tracked in JAMES, an interactive system accessible to both the
                         Treasury Office of Inspector General and bureau management.
                         JAMES contains tracking information on audit reports from their
                         issuance through completion of all actions related to the findings
                         and recommendations. At the bureau level, FinCEN uses its own
                         internal tracking process, which contains more detailed information
                         than JAMES.

                         FinCEN’s Office of Deputy Chief Financial Officer (ODCFO)
                         coordinates developing FinCEN’s responses to audit findings and
                         recommendations. ODCFO’s assistant director validates the
                         planned corrective actions developed by responsible program
                         officials, and ODCFO staff track implementation of the planned
                         corrective actions and document the process. Before closing a
                         recommendation, ODCFO staff review supporting documentation
                         regarding the corrective action.


Objective, Scope, and Methodology
                         The objective of this corrective action verification was to determine
                         whether FinCEN management had taken corrective actions

2
    Office of Management and Budget Circular A-50, revised, “Audit Followup” (Sept. 29, 1982).
3
    Treasury Directive 40-03, “Treasury Audit Resolution, Follow-Up, and Closure” (Feb. 2, 2005).



                         BANK SECRECY ACT: FinCEN Has Take Action to Improve Its Program            Page 2
                         to Register Money Services Businesses (OIG-08-033)
                      responsive to the intent of two recommendations that we made in
                      our September 2005 report to improve FinCEN’s MSB registration
                      program.4

                      We met with a staff member from FinCEN’s ODCFO to understand
                      how recommendations in JAMES are monitored. We obtained and
                      reviewed supporting documents to determine whether
                      implementation of the planned corrective actions was
                      adequate. We queried JAMES to review the status of the
                      recommendations.

                      We conducted our review from August 2007 to October 2007 at
                      FinCEN headquarters in Vienna, Virginia, in accordance with
                      generally accepted government auditing standards.


Corrective Actions Taken by FinCEN
                      Prior Recommendation 2. The Director of FinCEN should develop
                      and implement a strategy to take enforcement actions when
                      appropriate, including working with the Internal Revenue
                      Service (IRS) and the states to ensure timely and quality
                      referrals of unregistered MSBs are made.

                      In response to Recommendation 2, FinCEN developed a strategy in
                      May 2006 to address the challenges posed by developing and
                      administering a Bank Secrecy Act regulatory framework for the
                      MSB industry. In it, three strategic objectives were identified with
                      specific tasks to be accomplished. The second strategic objective—
                      identify unregistered MSBs and coordinate appropriate regulatory
                      actions—directly addressed the recommendation. FinCEN
                      developed several specific tasks to meet the strategic objective and
                      made efforts to accomplish the tasks.

                      In particular, FinCEN worked with law enforcement agencies,
                      including IRS, and analyzed Suspicious Activity Reports to identify

4
 The September 2005 audit report contained three recommendations. Recommendation 1 was to
develop and track performance indicators that measure how registration is enhancing Bank Secrecy Act
compliance by the MSB industry. We excluded this recommendation because FinCEN will define a
performance measure for the FY 2008 budget and will establish the baseline in FY 2008.



                      BANK SECRECY ACT: FinCEN Has Take Action to Improve Its Program         Page 3
                      to Register Money Services Businesses (OIG-08-033)
unregistered MSBs. FinCEN identified 5,776 entities as possible
unregistered MSBs from Suspicious Activity Reports accumulated
from September 2002 through November 2007, and Immigration
and Customs Enforcement identified 67 entities as possible
unregistered MSBs. In addition, since September 27, 2005, the
date of our original report, through January 31, 2008, FinCEN
received seven referrals from IRS for failure to register or renew
registration. We believe that FinCEN addressed the intent of our
recommendation.

Prior Recommendation 3. The FinCEN Director should assess
whether the guidance on the dollar transaction threshold
definition of an MSB requires clarification so as to reduce the
risk of misinterpretation.

In response to Recommendation 3, FinCEN issued guidance in
February 2006 concerning MSB registration and deregistration, in
which the dollar transaction threshold definition of an MSB was
more clearly made. We therefore believe that FinCEN addressed the
intent of our recommendation. It should be noted that concurrent
with the issuance of the guidance, FinCEN initiated a broader
review of the regulatory framework for MSBs and expects to
further assess the current dollar transaction threshold.

Management Response

In a written response to our draft report, (Appendix 1), the Director
of FinCEN noted the report’s findings as reinforcing the bureau’s
commitment to strengthening the administration of the Bank
Secrecy Act with respect to MSBs through its outreach and
collaborative efforts. He stated that FinCEN recognizes the
importance of maintaining a continuing dialogue with each of the
financial industries subject to the Bank Secrecy Act, and cited its
achievements regarding the MSB registration.

                              *******

We would like to extend our appreciation for the cooperation and
courtesies extended to our staff during the review. If you have any



BANK SECRECY ACT: FinCEN Has Take Action to Improve Its Program   Page 4
to Register Money Services Businesses (OIG-08-033)
questions, please contact me at (202) 927-6512. The major
contributor to this report was Myung Han, Management Analyst.




Michael J. Maloney
Director, Fiscal Service Audits




BANK SECRECY ACT: FinCEN Has Take Action to Improve Its Program   Page 5
to Register Money Services Businesses (OIG-08-033)
Appendix 1
Management Response




BANK SECRECY ACT: FinCEN Has Take Action to Improve Its Program   Page 6
to Register Money Services Businesses (OIG-08-033)
Appendix 2
Report Distribution




Department of the Treasury

Under Secretary, Office of Terrorism and Financial Intelligence
Assistant Secretary, Terrorist Financing and Financial Crimes
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Financial Crimes Enforcement Network

Director
Associate Director, Regulatory Policy and Program Division
Assistant Director, Deputy Chief Financial Officer

Office of Management and Budget

OIG Budget Examiner




BANK SECRECY ACT: FinCEN Has Take Action to Improve Its Program   Page 7
to Register Money Services Businesses (OIG-08-033)
